     Department of Homeland Security

     ��������������������������



          The City of Pacifica, California, 

    Generally Followed Regulations for Spending 

          FEMA Public Assistance Funds 





DS-13-13                              September 2013

                               OFHCE OF INSPECTOR GE:-.iERAL
                                   Department of llomcland Security
                                    \V~biogh,ln,   DC 20S2S /   www.oig.dh~.go\'



                                             SEP 2 0 2013
MEMORANDUM FOR:                    Nancy Ward
                                   Regional A mm· trator, Region IX
                                   Federal

FROM:
                                   Assistantl s · or General
                                   Office of Emergency Management Oversight

SUBJECT:                           The City of Pacifico, California, Generally Followed
                                   Regulations for Spending FEMA Public Assistance Funds
                                   FEMA Disaster Number 1628-DR-CA
                                   Audit Report Number DS-13·13

We audited Federal Emergency Management Agency (FEMA) Public Assistance grant
funds awarded to the City of Pacifica, California (City), Public Assistance Identification
Number 081-54806-00. Our audit objective was to determine whether the City
accounted for and expended FEMA grant funds according to Federal regulations and
FEMA guidelines.

The California Governor's Office of Emergency Services (Cal OES), a FEMA grantee,
awarded the City $2,925,240 for costs resulting from severe storms, flooding, mudslides,
and landslides from December 17,2005, through and including January 3, 2006.1 The
award provided 75 percent FEMA funding for 7 large projects and 10 small projects. 2
Our audit covered the period from December 17, 2005, to June 10, 2013. We audited
$2,772,687, including six large projects totaling $2,599,005/ and two small projects
                                 4
totaling $173,682 (see exhibit}.


1
  At the time of this disaster, the grantee's name was the Governors Office of Emergency Services (OES).
However, OES became part of Cal EMA from January 1, 2009, to June 30, 2013-including during the time
or our fieldwork. As ol July 1, 2013, Cal EMA transilioned back to the California Governor's Office of
Emergency
,           Services (Cal OES).
• Federal regulations in effect at the time of the disaster set the large project threshold at $57,500.
3
  City officials submitted their final claimed costs of $2,92S,240 on June 22, 2012, to Cal OES, as
represented by their Final Inspection letter with the FEMA Project listing and Completion and
Certification Report. Consequently, we based our audit on these claimed costs as of our audit cut-off date
of December 19, 2012 (sec Exhibit, Schedule of Projects Audited and Questioned Costs).
4
  One small project, funded for $14H,98l, represented a net small project overrun. Per 44 CFR 206.204
(e)(l), FEMA will not normally review an overrun for an individual small project. See exhibit for more
information.
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   We conducted this performance audit between June 2012 and June 2013, pursuant to
   the Inspector General Act of 1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based upon our audit objective. We believe that the evidence
   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objective. We conducted this audit by applying the statutes, regulations, and
   FEMA policies and guidelines in effect at the time of the disaster.

   We interviewed FEMA, Cal OES, and City officials; reviewed judgmentally selected
   project costs (generally based on dollar value); and performed other procedures
   considered necessary to accomplish our objective. We did not assess the adequacy of
   the City’s internal controls applicable to grant activities because it was not necessary to
   accomplish our audit objective. We did, however, gain an understanding of the City’s
   method of accounting for disaster-related costs and its procurement policies and
   procedures.


                                       RESULTS OF AUDIT

   Generally, the City accounted for and expended FEMA grant funds according to Federal
   regulations and FEMA guidelines. However, the City claimed $101,335 for disaster costs
   that were either ineligible or unsupported, which represents less than 4 percent of the
   $2,772,687 we audited. Table 1 summarizes our questioned costs by finding.

                      Table 1: Summary of Questioned Costs by Finding
                                                                                 Questioned
     Finding                              Subject
                                                                                    Costs
        A          Costs Not Part of the FEMA-Approved Scope of Work              $ 57,058
        B                       Unsupported Project Costs                            27,096
        C                         Ineligible Contract Costs                          11,388
       D            Ineligible Regular Time Force Account Labor Costs                 3,897
        E                              Duplicate Costs                                1,896
      Total                                                                        $101,335




www.oig.dhs.gov                                 2                                         DS-13-13
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security
   Finding A: Costs Not Part of the FEMA-Approved Scope of Work

   City officials claimed $57,058 in ineligible costs for Projects 3436 ($32,091) and 3449
   ($24,967) that were not part of the FEMA-approved scope of work. The costs incurred
   for these projects related to either (1) pre-disaster work, (2) improvements that FEMA
   did not authorize, or (3) work not eligible under the FEMA Public Assistance Program.

   Federal regulations and FEMA guidelines stipulate that—

       •	 To be eligible, an item of work must result from the disaster. (44 CFR 206.223)

       •	 A subgrantee must obtain prior approval from FEMA when it anticipates
          revisions to a project scope or project objective (regardless of whether there is
          an associated budget revision that requires prior approval). (44 CFR 13.30(d)(1))

       •	 For the restoration of damaged facilities to be eligible, standards must be
          reasonable, in writing, and formally adopted and implemented on or before the
          disaster declaration date, and must apply uniformly to all similar types of
          facilities within the jurisdiction of the owner of the facility…
          (44 CFR 206.226(d)(3)(i) and (4))

       •	 FEMA may provide assistance to repair or replace privately owned access routes,
          [including] driveways under the Individuals and Households Program.
          (44 CFR 206.117(c)(vi) and Assistance for Privately Owned Access Routes, FEMA
          RP9445.1, April 6, 2010)

       •	 Subgrantees can perform improvements while still restoring the pre-disaster
          function of a damaged facility, if the grantee approves the improvements before
          construction. Governing criteria limit Federal funding for improved projects to
          the Federal share of the estimated costs and to the time limits associated with
          repairing the damaged facility to its pre-disaster design. The balance of the
          funds is a non-Federal responsibility. FEMA shall limit the Federal funding for
          such improved projects to the Federal share of the approved estimate of eligible
          costs. (44 CFR 206.203(d)(1)) Work performed must derive from the project’s
          FEMA-approved scope to be eligible for Federal funding. (FEMA Public Assistance
          Guide, FEMA 322, October 1999, pp. 73 and 115–116 and FEMA Applicant
          Handbook, FEMA 323, September 1999, pp. 21–22, 32, and 52)

       •	 Eligible items for roads (paved, gravel, and dirt) include surfaces, bases, and
          shoulders. Only repairs to disaster-related damage are eligible. (FEMA Public
          Assistance Guide, FEMA 322, October 1999, p. 53)




www.oig.dhs.gov                                3	                                      DS-13-13
                                   OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security
   City officials did not always comply with these criteria. City officials claimed $57,058 in
   costs beyond the approved scope for the projects. These costs consisted of—

       •	 $21,500 for project 3436 in unauthorized roadwork and improvements that the
          City performed after completing the FEMA-approved work. FEMA identified
          disaster-related damage on Beach Boulevard and authorized damage repairs to
          the roadway, asphalt walkway, and handrail. However, City officials performed
          additional work, including installing 2-inch asphalt concrete overlay pavement
          and 3-foot strip around west and south edges, removing strip, raising utility
          boxes, and raising grade for positive drainage.

       •	 $10,591 for project 3436 in (additional) unauthorized roadwork, including the
          removal and replacement of paving at Promenade, an unapproved site.

       •	 $21,430 for project 3449 in storm drain repairs not related to the disaster.
          Before the disaster event, the City budgeted and started the repair work. The
          storm drain repair charges that the City has submitted for Federal
          reimbursement included—

                     o	 $14,300 in non-disaster-related storm drain repair costs that City
                        officials scheduled before the disaster; and

                     o	 $7,130 in non-disaster-related storm drain excavation costs that the
                        City incurred before the disaster.

       •	 $3,537 for project 3449 in unauthorized costs for work the City performed on
          the driveways of private residences, including— 5

                     o	 $2,254 in force account labor; and

                     o	 $1,283 in force account equipment.




   5
     Federal criteria specify that funding for eligible private driveways, should it be provided, will be granted
   through the FEMA Individuals and Households Program (and not the FEMA Public Assistance Program,
   under which this grant was awarded).


www.oig.dhs.gov                                          4	                                                 DS-13-13
                                    OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security
   Table 2 summarizes the ineligible costs by project.



                             Table 2: Scopes of Work and Ineligible Costs by Project
                                                                               Basis of
                  FEMA-Approved                                              Ineligibility:
      Project                           Examples of Ineligible Work                           Questioned
                   Scope of Work                                           Outside of the
      Number                                    Performed                                       Costs
                       by Site                                            FEMA-Approved
                                                                           Scope of Work
                       Beach                                                Unauthorized
                                       Beach Boulevard: Raising Utility
                     Boulevard:                                            Roadwork and          $21,500
                                              Boxes and Grade
                  Damage Repairs                                           Improvements
        3436
                  to Road, Asphalt
                                                                         Unauthorized Site
                   Walkway, and          Promenade: Removal and
                                                                                  and             10,591
                      Handrail             Replacement of Paving
                                                                           Improvements
                   Grand Avenue                                          Project Unrelated
                                     Pre-Disaster Storm Drain Repair                              21,430
                  and Headlands                                             to Disaster
                   Trail: Damage
                                                                         Work Performed
        3449      Repairs to Road
                                       Repair Work on Driveways of       Not Eligible Under
                    (Excavation,                                                                   3,537
                                           Private Residences              FEMA Public
                    Compaction,
                                                                            Assistance
                   and Repaving)
        Total                                                                                    $57,058


   Therefore, we question $57,058 as ineligible for Projects 3436 ($32,091) and 3449
   ($24,967) because the City claimed (unauthorized) costs outside of the FEMA-approved
   scope of work.

   City officials partially concurred with our findings—

       •	 City officials did not concur with our findings for Project 3436. They incorrectly
          believed that FEMA had approved the overlay applied to the entire Promenade.
          They noted that FEMA officials (1) authorized the roadwork at Beach Boulevard
          and the asphalt walkway; and (2) referenced the asphalt walkway (throughout
          the project documentation), which implied the Promenade in its entirety,
          thereby authorizing the City to apply the asphalt concrete overlay pavement to
          the entire Promenade.

       •	 City officials concurred that $19,062 of the $21,430 in questioned costs for
          Project 3449 are attributable to the City’s non-disaster-related storm drain repair
          project. The City stated that it incurred the remaining amount of $2,368 for
          rental costs for equipment the contractors used to perform FEMA-eligible work.

       •	 City officials do not concur with our finding for Project 3449 that the repair work
          the City performed on driveways of private residences is ineligible. They


www.oig.dhs.gov                                        5	                                             DS-13-13
                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security
           explained that although the City erroneously recorded the tasks on their work
           orders as excavating, grading, and installing driveways, the City crew installed
           only concrete “curb cuts.” They stated that the FEMA scope of work authorized
           the re-build of the road to current standards, which created a misalignment with
           the pre-disaster private residence curb cuts. The City’s work provided new curb
           cuts aligned with the replacement road, and City officials believe that FEMA
           authorized the repairs because the completed scope of work included paving all
           entrances and backfilling curbs.

   We maintain that City officials performed ineligible work, outside of the FEMA-
   authorized scope—

       •	 Project 3436: The City performed unauthorized roadwork, including the removal
          and replacement of paving at Promenade, which was not disaster-related. FEMA
          identified the specific disaster damages to the asphalt walkway, which refutes
          the assertion that the entire Promenade qualified for FEMA-funded asphalt
          concrete overlay pavement.6 FEMA already covered the costs of the repairs to
          Beach Boulevard and the asphalt walkway under a separate project. 7 Therefore,
          City officials exceeded the authorized scope of work for Project 3436 by
          performing this additional (improvement) work on Beach Boulevard and the
          Promenade, respectively costing $21,500 and $10,591, which was unrelated to
          the disaster.

       •	 Project 3449: The City did not provide documented evidence supporting the
          eligibility of the $2,368 in rental equipment costs.

       •	 Project 3449: The City performed ineligible work on driveways of private
          residences. FEMA’s approved scope of work authorized erosion repairs to a pre-
          disaster road surface that consisted of a “built up” bituminous material and did
          not include curb cuts. We requested that City officials provide documented
          evidence showing that the completed work was the City’s responsibility (and
          therefore complied with Federal requirements (44 CFR 206.226(d)(3)(i) and (4)).
          City officials did not respond to our request. However, we identified an instance
          where the City provided work on an unimproved road and the homeowners’



   6
     According to FEMA documentation, damages attributed to waves overtopping the seawall consisted of
   two large areas (the largest being 75 cubic feet) and over a dozen other small areas averaging a cubic foot
   each, with a total approximate effected area of 36,727 square feet.
   7
     Damage along the northern end of Beach Boulevard and asphalt walkway occurred due to waves
   overtopping the revetment and eroding the asphalt and pavement. Additional (post-disaster) damages
   were incurred from heavy equipment traffic and boulders used in the revetment repair. The City used
   FEMA Project 2926 to repair both disaster and eligible post-disaster repair damages.


www.oig.dhs.gov                                         6	                                               DS-13-13
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security
           contractor(s)—not the City—installed lower cost asphalt berms instead of
           concrete curbs.

   Cal OES officials did not comment on this finding.

   FEMA officials told us that they will review all pertinent documentation for Projects
   3436 and 3449 and make a final determination upon closeout and after we issue our
   final report. For Project 3436, FEMA officials (including their staff engineer) said that
   the City may have improperly claimed costs for ineligible project improvements
   regarding the asphalt concrete overlay on Beach Boulevard.

   Finding B: Unsupported Project Costs

   City officials did not provide sufficient documentation to support $27,096 in costs it
   claimed for Projects 3422 ($12,556), 3436 ($1,890), and 3449 ($12,650).

   Federal regulations and FEMA guidelines predicate eligibility on sufficient documentary
   support, specifying that subgrantees must—

       •	 Adequately document costs for those costs to be allowable under a Federal
          award. (2 CFR, Part 225, Cost Principles for State, Local and Indian Tribal
          Governments, Appendix A; Section C(1)(j))

       •	 Establish and maintain accurate records of events and expenditures related to
          disaster recovery work. (FEMA Public Assistance Guide, FEMA 322, October
          1999, pp. 113–114)

       •	 Perform work that is derived from the project’s FEMA-approved scope, in order
          to be eligible for Federal funding. (FEMA Public Assistance Guide, FEMA 322,
          October 1999, pp. 73 and 115–116 and FEMA Applicant Handbook, FEMA 323,
          September 1999, pp. 21–22, 32, and 52)

       •	 Claim costs for work required as a result of the disaster. (44 CFR 206.223)

       •	 Have fiscal controls and accounting procedures that permit the tracing of funds,
          and must maintain records that adequately identify the source and application of
          funds provided for financially-assisted activities. (44 CFR 13.20(a)(2))

       •	 Support their accounting records with source documentation such as cancelled
          checks, paid bills, payrolls, time and attendance records, and contract and
          subgrant award documents. (44 CFR 13.20(b)(6))




www.oig.dhs.gov                                 7	                                          DS-13-13
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security
   City officials did not always comply with these criteria. Instead, their project accounting
   improperly attributed to FEMA $27,096 in costs not incurred on the designated FEMA-
   eligible projects—

       •	 City officials claimed $35,515 in professional services costs for Projects 3422 and
          3436, of which $14,446 they could not support with sufficient documentation.

                      Table 3: Unsupported Professional Services Costs
                              Professional      Costs           Costs
                  Project
                                 Service       Claimed      Questioned
                               Contracted
                   3422     Engineering and     $11,306            $7,681
                                 Design
                              Construction
                   3422                          19,379              4,875
                             Management
                               Contracted
                   3436                            4,830             1,890
                               Inspections
                   Total                        $35,515           $14,446

           City officials (1) acknowledged instances where the costs they claimed could not
           be attributed to the specific worksite designated in the approved scope of work;
           (2) comingled professional services costs for work performed on two distinct
           projects—approved under separate Federal disaster declarations (DR 1628-DR­
           CA and DR 1646-DR-CA)—on the contractor’s invoiced billings for these sites;
           and (3) allocated a percentage of total costs to each project, rather than
           documenting and tracing specific costs on a per-project basis.

       •	 City officials claimed $38,211 in force account labor and equipment costs for
          Project 3449 of which $12,650 related to work that the City performed on non-
          eligible sites and tasks (see table 4).

                    Table 4: Unsupported Force Account Costs by Project
                           Force Account    Claimed
                  Project                               Costs Questioned
                               Type          Costs
                                Labor                $24,104            $7,187
                   3449
                             Equipment                14,107             5,463
                   Total                             $38,211           $12,650




www.oig.dhs.gov                                 8	                                        DS-13-13
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security
           The City work orders described up to 15 different work sites in addition to Grand
           Avenue (the scope of work for Project 3449). Work orders included names such
           as Belfast, Olympian Way, San Pedro Road, Calera, Corp Yard, Linda Mar
           Boulevard, and Green Room.

           We could not reconcile City documentation in support of the disaster-related
           charges to the work on eligible sites, because the City—

                  o	 Comingled $7,187 in labor work order costs for multiple sites. City
                     officials recorded labor work order sites that were not included in the
                     FEMA-approved scope.

                  o	 Comingled $4,831 in equipment work order costs for multiple sites. City
                     officials recorded equipment work order sites that were not included in
                     the FEMA-approved scope.

                  o	 Claimed $632 in excessive equipment costs, where the sum of the hours
                     City officials claimed for operating multiple pieces of equipment on a
                     given day exceeded the hours worked by the single operator.

           Generally, City officials used work order forms to document force account labor
           project charges they submitted to FEMA. These work orders typically
           (1) documented only the estimated, rather than actual, hours employees
           required to perform the stated tasks; and (2) lacked the employees’ signatures
           and did not always include the necessary supervisory authorization signatures on
           the approval lines. City officials also used an untitled form to document
           overtime hours worked, which reflected many of the same shortcomings we
           noted for the work orders.

   Therefore, we question $27,096 for Projects 3422 ($12,556), 3436 ($1,890), and 3449
   ($12,650) that the City claimed, but could not support with sufficient documentation.
   City officials partially concurred with our findings—

       •	 For Projects 3422 and 3436, City officials concurred with our finding that the line
          items we questioned on invoices reflect engineering services performed jointly
          on two (approved) projects, in some instances under separate Federal disaster
          declarations, and that City officials allocated costs based upon a proration to
          each project rather than claiming actual costs on a project-by-project basis, as
          required. The City prepared for us a schedule to support and explain its cost
          allocation methodology.




www.oig.dhs.gov                                   9	                                       DS-13-13
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security

       •	 For Project 3449, City officials agreed that they documented costs using work
          orders and an untitled form to document overtime hours. However, they
          contended that only $1,110 of the $12,650 we questioned should be disallowed
          (based on work that occurred at unauthorized sites on three days, which City
          officials acknowledged), and did not concur that costs claimed included charges
          for multiple sites or lacked adequate support. City officials stated that they used
          various sites, named in the work orders, as staging areas for City or contractor
          vehicles, equipment, tools, and materials in repairing Grand Avenue damages.

   We maintain that our findings are valid—

       •	 Regarding Projects 3422 and 3436, the City’s source documents for costs it
          incurred do not provide evidence that the costs relate to the scope of work
          FEMA approved for the two projects. Thus, we cannot reconcile the costs to the
          allocation schedule City officials provided us.

       •	 Regarding Project 3449, the City explained that the multiple site designations
          were all part of the Grand Avenue disaster repair project. The City, however, did
          not provide documentation showing the (1) name of the employee, (2) period of
          time worked, and (3) task performed. Such documentation is especially relevant
          because, as we noted in finding A, the City agreed that its claimed costs for
          Project 3449 included costs for ineligible storm-drain repairs. Without adequate
          support for the costs claimed, we cannot conclude that the charges pertain to
          FEMA eligible work.

   Cal OES officials did not comment on this finding. FEMA officials elected to withhold
   comments until after we issue our final report.




www.oig.dhs.gov                                10	                                       DS-13-13
                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security
   Finding C: Ineligible Contract Costs

   City officials claimed $11,388 in ineligible contract landscaping costs for Projects 3450
   ($7,379) and 3664 ($4,009). Federal criteria stipulate that—

       •	 Trees, shrubs, and other plantings, with the specific exception of grass and sod
          where needed to stabilize slopes and to minimize sediment runoff, will no longer
          be eligible under Section 406 of Public Law 93-288, as amended, for all disaster
          declarations beginning with FEMA-1152-DR-WA (declared January 7, 1997). This
          policy applies equally to recreational and non-recreational areas and facilities;
          and the policy applies to any measure taken with respect to trees, shrubs, and
          other plantings not limited to replacement, and remedial actions taken to abate
          disaster damage. (FEMA Response and Recovery Policy #4511.300, Trees, Shrubs,
          and Other Plantings Associated with Facilities, November 25, 1997)

       •	 Golf courses’ non-structural portions (e.g., sandtraps, drainage, etc.) are eligible.
          The replacement of trees, shrubs, and other ground cover for a golf course,
          however, is ineligible; with the specific exception for grass and sod when
          necessary to stabilize slopes and minimize sediment runoff. (FEMA Public
          Assistance Guide, FEMA 322, October 1999, pp. 16 and 58–60) 8

   City officials did not comply with these criteria when claiming—

       •	 $7,379 for contracted replanting and landscaping costs on a public golf course
          for Project 3450 that was not performed to stabilize a slope.9

       •	 $4,009 for labor and materials to install 170 plants and willow cuttings (i.e.,
          trees, shrubs, or bushes) on a slope for Project 3664 that was not limited to the
          installation of sod and grass.

   We therefore question as ineligible $11,388 in costs for Projects 3450 ($7,379) and 3664
   ($4,009).


   8
     The 2007 FEMA Public Assistance Guide, Page 87, retained the same limitation as the 1999 version—
   namely, that only grass and sod would be eligible to stabilize slopes referenced—and specified that, "this
   restriction also applies to instances where ground is disturbed due to movement of heavy equipment
   performing eligible work, such as when repairing underground utilities within landscaped areas."
   9
     The City of San Francisco owns, operates, and maintains the Sharp Park Golf Course. Documentation for
   Project 3450 notes that the rupture of an underground sewage line that the City of Pacifica owns caused
   the damage to the public golf course, thereby making the City of Pacifica responsible for addressing the
   damage.


www.oig.dhs.gov                                        11	                                               DS-13-13
                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security
   City officials did not concur with our findings—

        •	 City officials did not concur with our finding for Project 3450. They stated that
           the disaster repairs stabilized a slope and were eligible for FEMA funding. They
           provided us with three recent photographs of the golf course (figure 1) and
           noted that the contour of the golf course elevated by the golf cart path is a slope
           that required stabilization and erosion control.

        •	 City officials did not provide a formal response to our finding for Project 3664.

   The City’s explanation and photographs do not support that the work performed
   represented stabilizing a slope failure (which, under specific conditions, is eligible for
   FEMA reimbursement under FEMA Policy 9524, Landslides and Slope Failures). As figure
   1 shows, the areas related to Project 3450 are relatively flat. We therefore maintain our
   finding. The costs the City claimed for Project 3450 are ineligible because FEMA’s policy
   specifically disallows landscape costs even when damages (1) are caused by the disaster
   event; and (2) result from equipment used in the repair process. (As noted in footnote
   eight, one of the criteria cited is, fittingly, surface restoration work performed on an
   underground utility in a recreational area.) Likewise, FEMA’s criteria provide specific
   guidelines as to what constitutes slope stabilization: “emergency protective measures to
   stabilize slopes and hills that were damaged by the disaster may be eligible only if
   necessary to eliminate or lessen immediate threats to life, public health, safety, or
   significant additional damage to improved public or private property.” 10




               Figure 1: Project 3450, City-Performed Landscaping; Golf Cart Path; Lack of Slope

                                             Source: City of Pacifica


   One Cal OES official stated that Cal OES always considers the types of costs we
   questioned in this finding for Project 3450 as eligible. FEMA officials (including a FEMA
   engineer) agreed with our conclusion and expressed that, based on available
   documentation, the area in question does not constitute a slope per FEMA disaster
   10
      FEMA’s Landslide Policy Related to Public Facilities (Policy #9524.2), August 1999, provides examples of
   eligible emergency protective measures: excavation at the head of the sliding mass to reduce the driving
   force; filling or buttressing at the toe of the potential sliding mass (for example, gabions, rock toes,
   cribwalls, binwalls); and, construction of subsurface drainage to lessen the pore-water pressure along the
   potential sliding surface.


www.oig.dhs.gov                                        12	                                               DS-13-13
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security
   assistance criteria, nor would it require stabilization. However, they stated that they
   will review all pertinent documentation and make a final determination upon closeout,
   after we issue our final report.

   Finding D: Ineligible Regular Time Force Account Labor Costs

   City officials claimed $3,897 in ineligible, emergency-oriented force account regular time
   labor costs for Project 3450—a permanent work project. Federal regulations and FEMA
   guidelines stipulate that—

        •	 The straight- or regular-time salaries and benefits of a subgrantee's permanently
           employed personnel are not eligible in calculating the cost of eligible work under
           sections 403, Essential Assistance, and 407, Debris Removal, of the Stafford
           Act. (44 CFR 206.228(a)(2), Force Account Labor Costs)

        •	 For emergency work, only overtime labor is eligible for permanent employees.
           (FEMA Public Assistance Policy Digest, FEMA 321, October 2001, p. 73)

        •	 The subgrantee generally should not combine emergency work (Categories A
           and B) with permanent work (Categories C through G) unless the emergency
           work is incidental to the permanent repair, and regardless, FEMA eligibility
           criteria still apply as is appropriate to the type of work/costs performed. (FEMA
           Applicant Handbook, FEMA 323, September 1999, p. 16)

   The City did not always comply with these criteria. City officials claimed $6,933 in force
   account labor regular time costs for Project 3450, a permanent work project.11 Of these
   charges, $3,897 related to emergency work on a leak in the force main water line.12 The
   City performed the work soon after the disaster, and the efforts included emergency-
   oriented tasks, such as—

        •	 Containing overflow and redirecting the material back into the system.

        •	 Checking on the force main leak through the day.

        •	 Digging to inspect the leak and backfill area with asphalt.

   Therefore, we question $3,897 in ineligible regular time force account labor charges for
   Project 3450. City officials did not provide a formal response to this finding, Cal OES

   11
      As aforementioned in the criteria we presented, FEMA designates emergency-oriented projects as
   either Category A (Debris Removal) or B (Emergency Protective Measures). FEMA assigned Project 3450
   as Category F (Public Utilities).
   12
      The City claimed $4,609 in overtime force account labor for Project 3450.


www.oig.dhs.gov                                     13	                                            DS-13-13
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security
   officials did not comment on it, and FEMA officials elected to withhold comments until
   after we issue our final report.

   Finding E: Duplicate Costs

   City officials erroneously claimed $1,896 twice for advertising costs for Project 3436.
   Therefore, we question $1,896 as duplicate (ineligible) costs. City officials agreed with
   our finding and said that they would notify Cal OES officials of the required adjustment.


                                         RECOMMENDATIONS

   We recommend that the Regional Administrator, FEMA Region IX:

     Recommendation #1: Disallow $57,058 ($42,794 Federal share) in ineligible costs for
     Projects 3436 ($32,091) and 3449 ($24,967) as unauthorized work performed beyond
     the approved scope of work (finding A).

     Recommendation #2: Disallow $27,096 ($20,322 Federal share) in unsupported costs
     for Projects 3422 ($12,556), 3436 ($1,890), and 3449 ($12,650), unless City officials
     provide adequate documentation consistent with FEMA criteria to support them, or
     can properly allocate costs—in coordination with grantee and FEMA officials—to the
     specific projects (and Federally-declared disaster(s)) to which they relate (finding B).

     Recommendation #3: Instruct the Grantee (State)—who must likewise inform its
     subgrantees—on the requirement to comply with Federal regulations and FEMA
     guidelines on maintaining accurate records as a post-award condition for FEMA
     disaster assistance grant funding, including criteria presented in both (1) 44 CFR 13.20,
     Standards for Financial Management Systems; and (2) FEMA Public Assistance Guide,
     FEMA 322, October 1999, pp. 113–114 (finding B).

     Recommendation #4: Disallow $11,388 ($8,540 Federal share) in ineligible
     landscaping costs for Projects 3450 ($7,379) and 3664 ($4,009) (finding C).

     Recommendation #5: Disallow $3,897 ($2,923 Federal share) in ineligible force 

     account labor costs for Project 3436 as a result of regular-time salaries emergency 

     work being comingled with permanent work (finding D).


     Recommendation #6: Disallow $1,896 ($1,422 Federal share) in ineligible, duplicate
     costs for Project 3436 (finding E).




www.oig.dhs.gov                                14                                        DS-13-13
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security
                  DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP 


   We discussed the results of our audit with City officials during our audit and included
   their comments in this report, as appropriate. We also added details and criteria to our
   findings to address the City’s comments.

   We provided a written summary of our findings and recommendations in advance to
   FEMA on December 19, 2012, and provided a discussion draft to FEMA, Cal OES, and
   City officials on April 11, 2013. We discussed our findings and recommendations at an
   exit conference with Cal OES and City officials on April 24, 2013. At this meeting, City
   officials requested additional time to provide documentation to resolve the findings
   before we issue our final report. City officials explained that they did not honor our
   various requests for information during the course of our fieldwork because they
   sometimes overlooked the requests or because we requested information via email,
   rather than on official OIG letterhead.

   We held two post-exit conferences—on April 30, 2013, and June 10, 2013—and, during
   the interim, allowed the City to submit additional documentation to support its position
   on the findings. We reviewed and considered the additional documents the City
   provided. Further, we met with officials from FEMA’s infrastructure staff on May 21,
   2013, to specifically discuss our audit results for findings A and C.

   We have summarized the City’s formal response(s) within each finding of this report.
   We generally concluded that the additional documentation the City provided following
   our fieldwork—mostly narratives that City officials provided, rather than source
   documentation—does not satisfy applicable criteria that would allow us to modify our
   findings and recommendations. We have provided Cal OES copies of the documents
   that support our findings. We also provided Cal OES copies of the additional documents
   the City submitted to us as of June 10, 2013.

   City officials, in a June 13, 2013 letter to Cal OES, said that they will respond to the
   findings after we issue our final report.

   We have postponed issuing our audit report and have provided City officials multiple
   opportunities to provide the requested documentation, which they have not done. We
   therefore encourage Cal OES and FEMA officials to review carefully any additional
   documentation the City provides and ensure that claimed costs comply with Federal
   regulations and are eligible for reimbursement under FEMA’s Public Assistance Program.

   FEMA officials declined an exit conference and elected to withhold formal comments
   until after we issue our final report.




www.oig.dhs.gov                                  15                                           DS-13-13
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security
   Within 90 days of the date of this memorandum, please provide our office with a
   written response that includes your (1) agreement or disagreement, (2) corrective
   action plan, and (3) target completion date for each recommendation. Also, please
   include responsible parties and any other supporting documentation necessary to
   inform us about the current status of the recommendations. Until we receive and
   evaluate your response, we will consider the recommendations to be open and
   unresolved.

   Consistent with our responsibility under the Inspector General Act, we will provide
   copies of our report to appropriate congressional committees with oversight and
   appropriation responsibility over the Department of Homeland Security. We will post
   the report on our website for public dissemination.

   Major contributors to this report are Humberto Melara, Director; Devin Polster,
   Audit Manager; Curtis Johnson, Senior Auditor; and Jeffrey Flynn, Auditor.

   Please call me with any questions at (202) 254-4100, or your staff may call Humberto
   Melara, Director, Western Regional Office, at (510) 637-1463.




www.oig.dhs.gov                              16                                        DS-13-13
                                         OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security
                                                                                                                     Exhibit

                             Schedule of Projects Audited and Questioned Costs

                                                                           Questioned Costs
                                            Costs Not
                                                                                         Ineligible
    Project/                               Part of the
                Project                                                   Ineligible   Regular Time
     FEMA                      Claimed        FEMA       Unsupported                                   Duplicative
                 Award                                                    Contract         Force
    Category                    Costs       Approved     Project Costs                                    Costs       Total
                Amount                                                      Costs         Account
    of Work                                 Scope of      (Finding B)                                  (Finding E)
                                                                         (Finding C)    Labor Costs
                                              Work
                                                                                        (Finding D)
                                           (Finding A)
     3422/B       $184,949      $184,949                       $12,556                                                $12,556
     3436/D        976,009       976,009       $32,091           1,890                                      $1,896     35,877
     3441/D        380,573       380,573
     3449/C        241,987       241,987        24,967          12,650                                                 37,617
     3450/F        252,750       252,750                                      $7,379           3,897                   11,276
     3664/B        562,737       562,737                                       4,009                                    4,009
    3683*/B         24,700        24,700
    3853*/G        148,982       148,982
      Totals    $2,772,687    $2,772,687       $57,058         $27,096       $11,388          $3,897        $1,896   $101,335


   * Note: These two projects are small projects. FEMA bases funding for large projects on actual costs to complete the
   eligible scope of work (as adjusted after all work is complete). FEMA bases funding for small projects, however, on
   the Federal share (usually 75 percent) of the approved estimate of eligible work. If the applicant spends less than the
   amount FEMA approved, the Federal share will not be reduced to match actual costs. However, if the applicant incurs
   costs significantly greater than the total amount approved for all small projects (in the aggregate), the applicant may
   appeal for additional funding. This opportunity applies only to a net cost overrun for all small projects combined, not
   to an overrun for an individual project. Project 3853 represents a Federal obligation for the City’s net small project
   overrun.




www.oig.dhs.gov                                              17                                                        DS-13-13
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security
                                                                   Appendix

                                      Report Distribution

   Department of Homeland Security
   Acting Secretary
   Chief Financial Officer
   Under Secretary for Management
   Audit Liaison
   Acting Chief Privacy Officer

   Federal Emergency Management Agency
   Administrator
   Chief of Staff
   Chief Financial Officer
   Chief Counsel
   Director, Risk Management and Compliance
   Chief Procurement Officer
   Audit Liaison (Job Code G-12-032)
   Director, Recovery Division, Region IX
   Deputy Director, Recovery Division, Region IX
   Audit Liaison, Region IX
   Audit Follow-up Coordinator

   Grantee (California Governor’s Office of Emergency Services)
   Director
   Executive Assistant to the Secretary
   Chief of Staff
   Audit Liaison

   State (California)
   California State Auditor, Bureau of State Audits

   Subgrantee (City of Pacifica, California)
   Chief Executive Officer
   Director of Public Works
   Senior Manager
   Interim Manager
   Principal Accountant-Auditor




www.oig.dhs.gov                                18                      DS-13-13
                           OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security
                                                                             Appendix
                                                                           (continued)

   Congressional Oversight and Appropriations Committees, as appropriate, including:
   Senate Committee on Appropriations, Subcommittee on Homeland Security
   Senate Committee on Homeland Security and Governmental Affairs
   House Committee on Appropriations, Subcommittee on Homeland Security
   House Committee on Homeland Security
   House Committee on Oversight and Government Reform

   Office of Management and Budget
   Chief, Homeland Security Branch
   DHS OIG Budget Examiner




www.oig.dhs.gov                            19                                     DS-13-13
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
